                                               March 16, 1999


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Cost Sharing at Basic Energy Sciences' User
                       Facilities"

BACKGROUND

The Department of Energy's Office of Basic Energy Sciences (BES) funds the construction and operation of
17 designated user facilities that are recognized as being critical to scientific research. BES provides the
base-operating budget for its user facilities and generally makes the facilities available on a no-charge basis to
all qualified researchers. The objective of the audit was to determine whether the Department could enhance
scientific research at BES user facilities by seeking more opportunities for cost sharing.

RESULTS OF AUDIT

Cost sharing could enhance scientific research at BES user facilities. Funding shortfalls have prevented
BES's user facilities from operating at optimum levels. Both facility representatives and advisory panels have
concluded that additional funding is needed to increase beam operating time and quality, to upgrade facilities,
and to provide needed staff. Currently, users provide some contributions to facilities such as support of
beam line construction, instrumentation, and detectors. However, BES needs to identify additional
opportunities for users to provide contributions. We recommended that the Director, Office of Science seek
opportunities for users to share in the cost of facility enhancements and periodically perform and document
studies to evaluate the feasibility of cost sharing to supplement facility operating budgets.

MANAGEMENT REACTION

Management generally concurred with the finding and recommendations. Management agreed that cost
sharing should be used to support user facility enhancements such as instrumentation, capital improvements,
and staffing of experimental stations. However, management expressed concern that implementation of cost
sharing or user fees to cover base operating costs could be seriously detrimental to the user facilities and
science. Nevertheless, management agreed to incorporate studies to evaluate the feasibility of cost sharing
into the relevant major reviews of its user facilities.


Attachment

cc: Acting Deputy Secretary
    Under Secretary
DOE/IG-0441




     AUDIT
    REPORT

                                COST SHARING AT
                          BASIC ENERGY SCIENCES’USER
                                   FACILITIES




                                           MARCH 1999


 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
COST SHARING AT BASIC ENERGY SCIENCES' USER
FACILITIES


TABLE OF
CONTENTS



                Overview

                Introduction and Objective .........................................................1

                Conclusions and Observations.................................................. 2


                Cost Sharing Would Enhance Research Opportunities

                Details of Finding ......................................................................4

                Recommendations and Comments ...........................................7


                Appendix

                Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   BES supports fundamental research in the natural sciences and
OBJECTIVE          engineering leading to new and improved energy technologies.
                   Consistent with its mission, BES funds the construction and operation of
                   17 designated user facilities located at the Department's national
                   laboratories or at universities. These user facilities operate sophisticated
                   scientific devices that are made available to researchers. About
                   77 percent of these researchers are from academia and other
                   government-funded laboratories, about 12 percent are foreign users, and
                   about 11 percent are from industry. At user facilities, researchers set up
                   their equipment on beam lines and use the facilities' synchrotron or
                   neutron source beams to conduct research experiments. Eight facilities
                   (4 synchrotron light sources and 4 neutron sources) account for about
                   94 percent of BES's budget for user facilities.

                   BES's user facilities are generally recognized as being critical to
                   scientific research. An advisory panel, commissioned by BES, reported
                   in November 1997 that a shutdown of any of the synchrotron light
                   source user facilities over the next decade would do significant harm to
                   the nation's science research programs and would weaken our
                   international competitive position in this field. Similarly, a neutron
                   source advisory panel observed that user facilities play a unique role in
                   neutron sciences and, therefore, must be a continuing part of the
                   country's scientific armory.

                   Funding shortfalls have impeded BES's user facilities. For example,
                   funding constraints prevented some user facilities from running their
                   beams at maximum strength or caused beam quality to be sacrificed in
                   order to increase beam-running time. Both facility representatives and
                   the advisory panels have concluded that additional funding was needed
                   to increase beam operating time and quality, to upgrade facilities, and to
                                         1
                   provide needed staff.

                   BES provides the base-operating budget for its user facilities.
                   Generally, researchers contribute to the cost of setting up their
                   experiments on beam lines and are not required to share in the operating
                   costs of user facilities. The only exception to this practice is


                   ______________________________
                   1
                     Report of the Basic Energy Sciences Advisory Committee Panel on D.O.E.
                   Synchrotron Radiation Sources and Science, November 1997, and Report of the
                   Basic Energy Sciences Advisory Committee Panel on Neutron Source Facility
                   Upgrades and the Technical Specifications for the Spallation Neutron Source,
                   March 1998


Page 1                                                            Introduction and Objective
                  for proprietary users who are charged for their share of operating costs
                  on a full-cost-recovery basis. These proprietary users are researchers
                  who do not publish or make their research available to the rest of the
                  scientific community. However, proprietary users represent an
                  insignificant amount of total user time.

                  Cost sharing is the process by which those who receive some benefit from
                  research activities are asked to share in some fraction of the cost. Under
                  most cost-sharing arrangements, agencies pay for the majority of costs
                  and establish guidelines on who should share cost and what portion of the
                  costs should be contributed.

                  User facilities have been the subject of two Office of Inspector General
                  audit reports, only one of which covered a BES user facility. That audit,
                  Management of the National Synchrotron Light Source at Brookhaven
                  National Laboratory (ER-OC-87-2), dated February 1987, reported
                  several weaknesses in the facility's proprietary research program. The
                  other audit, Audit of Department of Energy's User Facilities (DOE/IG-
                  0395), dated August 1996, covered Defense Program user facilities.
                  That audit reported that for user facilities categorized as "Technical
                  Deployment Center/User Facilities," agreements were not always priced
                  to ensure full cost recovery, and collections from users were not handled
                  properly. The audit also reported that one designated user facility was
                  inappropriately providing financial and housing assistance to users.

                  The objective of this audit is to determine whether the Department could
                  enhance scientific research at BES user facilities by seeking more
                  opportunities for cost sharing.

                  BES should pursue opportunities to increase cost sharing by users. Cost
CONCLUSIONS AND   sharing could be used to obtain additional funding for user facilities from
OBSERVATIONS      industry and other agencies that benefit from the facilities. BES, while
                  continuing to provide the base operating budgets for its user facilities,
                  should identify additional ways in which cost sharing can be used to
                  supplement funding. Although BES has followed a policy that makes the
                  user facilities available on a no-charge basis to all qualified researchers,
                  BES should periodically evaluate the feasibility of cost sharing to
                  supplement its operating budget, especially in times of budget shortfalls
                  when its facilities are not operating at optimum levels.




Page 2                                                    Conclusions and Observations
         The audit did not identify any material internal control weaknesses that
         management should address when preparing its yearend assurance
         memorandum on internal controls. Rather, the audit identified an
         opportunity for the Department to enhance scientific research at its BES
         user facilities.




                                               (Signed)
                                       Office of Inspector General




Page 3                                        Conclusions and Observations
COST SHARING WOULD ENHANCE RESEARCH OPPORTUNITIES


Funding Shortfalls    Funding shortfalls have impeded user facilities from operating at
Impede Research       optimum levels. Based on estimates provided by representatives of 7
                      BES user facilities, approximately $21 million in additional Fiscal Year
                      (FY) 1999 funding would be needed in order to maximize beam time
                      and quality and to meet instrumentation and staffing needs. The
                      estimates ranged from about $1 million for Oak Ridge National
                      Laboratory's High Flux Isotope Reactor (HFIR) to about $8.5 million
                      for Brookhaven National Laboratory's National Synchrotron Light
                      Source (NSLS).

                      Funding shortfalls have limited the beam time available to researchers.
                      For example, at Argonne National Laboratory's Intense Pulsed Neutron
                      Source, funding limitations in FY 1997 prevented about 1,800 beam
                      hours from being available to users. At the HFIR, recent funding
                      reductions reduced available beam time from a satisfactory level in the
                      60-percent to 70-percent range to a level less than 50 percent. Also,
                      representatives of the Los Alamos National Laboratory's Neutron
                      Science Center (LANSCE) advised that additional funding could
                      increase beam time by as much as three months, raising the beam
                      availability level to about nine months per year.

                      A BES advisory panel and facility representatives identified a need for
                      additional funding to provide for instrumentation upgrades, replacement
                      of aging equipment, and staff increases to maintain and enhance beam
                      quality. For example, the BES panel reported that the NSLS needed
                      more staff to support research experiments performed by general users.
                      NSLS representatives also cited deficiencies in the size of engineering
                      and technical staffs. As another example, Lawrence Berkley National
                      Laboratory's Advanced Light Source representatives indicated that their
                      facility had a deficiency in the number of scientists and technicians.
                      LANSCE representatives also advised that they were unable to hire
                      various safety, scientific, and technical staff due to funding limitations.

                      Faced with the challenge of funding 17 facilities, BES strives to make
                      optimum use of available funds. BES representatives stated that funding
                      decisions for its user facilities are based on advisory panel
                      recommendations, peer reviews, program balance, quality of research
                      proposals, program integration issues, administration initiatives, and
                      Congressional and Office of Management and Budget guidance. BES
                      representatives also stated that funding constraints prohibit full funding
                      of all new ideas, and facility needs are addressed in balance with other
                      program considerations. However, BES representatives agreed that
                      each of the facilities could spend more on instrumentation, operating

Page 4                                                                       Details of Finding
                         expenses, and general user support and that more productivity would
                         result from such investments.

                         BES, while continuing to provide the base operating budgets for its
                         user facilities, should seek opportunities to increase cost sharing at its
                         user facilities. Currently, users provide some contribution to facilities
Cost Sharing Would
                         such as support of beam line construction, instrumentation, and
Compensate for Funding
                         detectors and certain facility upgrades. BES needs to continue to
Shortfalls
                         evaluate whether there are additional opportunities for users to
                         provide contributions. For example, facilities could seek
                         arrangements with selected users, such as industrial users, for cost
                         sharing in upgrades of the facility's equipment and instrumentation.
                         Also, BES should evaluate whether users can supplement base
                         operating funds to maximize beam time. For example, researchers
                         who are prevented from performing their experiments due to lack of
                         available beam time caused by funding shortages could be given the
                         opportunity to fund the additional beam time they require. As
                         another alternative, a facility could evaluate whether users, who do
                         not provide general users with ample time on their beam lines, can
                         provide a compensatory contribution to overall user support.

                         It is the policy of the Federal Government and the Department, as
                         described in 48 CFR 355, Research and Development Contracting, to
Cost Sharing is an       encourage organizations to contribute to the cost of performing
Accepted Practice for    research where there is a probability that the organization will receive
Research and             present or future benefits. For example, the Department's grants and
Development              cooperative agreements for research and development often require
                         the benefiting recipient to share some fraction of the costs. As
                         pressure mounts to rein in spending, requiring users to share cost has
                         become an increasingly attractive option for Federal agencies.

                         Federal policy provides flexibility in determining when and how much
                         cost sharing is appropriate. For example, contracting officers can
                         waive cost sharing in certain circumstances such as when the user has
                         little or no non-Federal sources or funds from which to make a
                         contribution. This flexibility distinguishes cost sharing from a "user
                         fee" arrangement by which every user is charged at published rates in
                         order to recover all the operating costs of a facility and, in some
                         cases, generate a profit.




Page 5                                                                        Details of Finding
Opposition to User   The Department has generally opposed user fees and followed a policy
Fees                 that makes the user facilities available on a no-charge basis to all
                     qualified researchers whose intention is to publish research results. The
                     Department's policy advocates that scientific merit, as measured by peer
                     review, must be the primary basis for access to these national resources.
                     However, in its opposition to user fees, the Department has not always
                     distinguished between “cost sharing” whereby certain users contribute a
                     portion of costs to supplement the operating budget and “user fees”
                     whereby user fees are assessed to all users and serve as the principal
                     funding source.

                     In 1991, Congress raised the issue of whether revenues can be generated
                     through user fees. The Department responded that there was no clear
                     evidence to indicate that it was feasible to generate revenue through user
                     fees. At that time, the Department also responded that it did not have
                     sufficient time to address the topic fully and further studies would be
                     done to examine the potential for cost sharing with industry, academia,
                     other Federal agencies, and international entities. However, the
                     Department has not provided any subsequent data or analytical studies
                     that addressed the feasibility of user contributions.

                     Increased cost sharing would provide the Department with a funding
Cost Sharing Would   option to help ensure that user facilities continue to provide safe, state-
Benefit BES User     of-the-art science even in times of funding shortfalls. For example, cost
Facilities           sharing could help user facilities obtain needed equipment and
                     instrumentation upgrades and facility enhancements. Furthermore, cost
                     sharing could provide supplemental funding especially when budget
                     shortfalls prevent facilities from operating at optimum levels.

                     BES representatives stated that they were meeting with other Federal
                     agencies to look into the feasibility of sharing in future user facility
                     construction costs. We believe this is a positive step and BES should
                     continue efforts to expand cost sharing.




                     We recommend that the Director, Office of Science, while continuing to




Page 6                                                                      Details of Finding
RECOMMENDATIONS       provide the base operating budgets for user facilities:

                             1.      Seek opportunities for sharing the cost of enhancements
                                     to the capability of the facilities, such as instrumentation,
                                     capital improvements, and staffing of experimental
                                     stations, and

                             2.      Periodically perform and document studies to evaluate
                                     the feasibility of cost sharing to supplement its operating
                                     budget.

                      Management generally concurred with the finding and
                      recommendations. Management agreed that cost sharing should be
MANAGEMENT REACTION
                      sought from users to support enhancements of facilities such as
                      instrumentation, capital improvements, and staffing of experimental
                      stations. However, management expressed concern that
                      implementation of cost sharing or user fees to cover base operating
                      costs could be seriously detrimental to the user facilities and science.
                      Management stated that its current no-charge policy for base operating
                      costs recognizes that scientific merit, as measured by peer review, must
                      be the primary basis for access to these national resources.
                      Management also stated that requiring facility users to share in
                      operating costs could significantly undermine this basis and detract
                      from the primary mission of the facilities, which is enabling world-class
                      science for the Nation. Management commented that its current
                      no-charge policy for operating costs is an important component to the
                      success of these science investments. Nevertheless, management
                      agreed to incorporate studies to evaluate the feasibility of cost sharing
                      into the relevant major reviews of its user facilities.

                      We consider management's comments to be responsive to the
                      recommendations.
AUDITOR COMMENTS




Page 7                                                  Recommendations and Comments
Appendix

SCOPE         The audit was performed from March to December 1998. The audit
              was performed at BES Headquarters in Germantown, Maryland;
              Brookhaven National Laboratory in Upton, New York; and Argonne
              National Laboratory in Argonne, Illinois. The following table shows the
              eight user facilities from which data were obtained.


                     Synchrotron Light Sources                         Location
              Advanced Light Source (ALS)                 Lawrence Berkley National Laboratory
              Advance Photon Source (APS)                 Argonne National Laboratory
              National Synchrotron Light Source (NSLS)    Brookhaven National Laboratory
              Stanford Synchrotron Radiation Laboratory   Stanford Linear Accelerator Center
              (SSRL)


                           Neutron Sources
              High Flux Beam Reactor (HFBR)               Brookhaven National Laboratory
              High Flux Isotope Reactor (HFIR)            Oak Ridge National Laboratory
              Intense Pulsed Neutron Source (IPNS)        Argonne National Laboratory
              Manual J. Lujan, Jr. Neutron Scattering     Los Alamos National Laboratory
              Center (LANSCE)




              To accomplish the audit objective, we reviewed applicable Federal and
METHODOLOGY   Departmental regulations, advisory panel reports, and other
              documentation relevant to BES's user facilities. We also held
              discussions with BES personnel and Department and contractor
              personnel at user facilities. In addition, we reviewed data provided by
              BES and user facilities concerning users, experiments, budgets, costs,
              and funding shortfalls at user facilities.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to accomplish our audit objective.




Page 8                                                          Scope and Methodology
                                                                               IG Report No. DOE/IG-0441

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
